INFORMATION SECURITY PROGRAM
     Department of Transportation

     Report Number: FI–2008–001
     Date Issued: October 10, 2007
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit of Information Security                     Date:    October 10, 2007
           Program, Department of Transportation
           Report Number: FI-2008-001
  From:    Calvin L. Scovel III                                   Reply to
                                                                  Attn. of:   JA–20
           Inspector General

    To:    Chief Information Officer

           This report presents the results of our annual audit of the information security
           program at the Department of Transportation. In accordance with the Federal
           Information Security Management Act of 2002 (FISMA), our objective was to
           determine the effectiveness of the Department’s information security program,
           especially in the areas of (1) meeting the minimum Government security standards
           to protect sensitive information systems and data, (2) establishing a secure
           network operating environment at the Department’s new Headquarters building
           and other key locations, (3) correcting security weaknesses identified previously in
           the air traffic control system, and (4) implementing earned value management to
           better monitor major information technology (IT) investment projects.

           We are also contributing to the annual departmental FISMA report by answering
           questions specified by the Office of Management and Budget (OMB). This is
           included as Exhibit A. Similar to last year, we tested a representative subset of
           departmental systems, including contractor-operated and/or -maintained systems
           that had undergone systems security certification reviews, in order to determine
           whether the Department had complied with Government standards for (1)
           assessing system risks, (2) identifying security requirements, (3) testing security
           controls, and (4) accrediting systems as able to support business operations. We
           also performed a detailed follow-up review of the Department’s process for
           managing remediation of known security deficiencies.

           This performance audit was conducted in accordance with Generally Accepted
           Government Auditing Standards prescribed by the Comptroller General of the
           United States. Details of our scope and methodology are described in Exhibit B.
                                                                                                                     2


INTRODUCTION

FISMA requires Federal agencies to identify and provide security protection
commensurate with the risk and magnitude of harm resulting from the loss of,
misuse of, unauthorized access to, disclosure of, disruption to, or modification of
information collected or maintained by or on behalf of an agency. The
Department maintains one of the largest portfolios of IT systems among Federal
civilian agencies; it is therefore essential that the Department protect these
systems, along with their sensitive data. In fiscal year (FY) 2007, the
departmental IT budget totaled about $2.6 billion.

The Department has 13 Operating Administrations. During FY 2007, all
Operating Administrations except the Federal Aviation Administration (FAA), the
Federal Railroad Administration (FRA), 1 and the Surface Transportation Board
were relocated to the new Headquarters. As part of the Headquarters relocation,
the Department consolidated individual Operating Administrations’ network
infrastructures (e-mail, desktop computing, and local area networks) into a
common IT infrastructure—one of the IT consolidation target projects identified
by the Department in FY 2003. 2

For FY 2007, the Department is reporting a total of 429 computer systems—3
more than last year, of which 60 percent are FAA systems. Among the systems
the Department maintains and operates is the air traffic control system, which the
President has designated part of the critical national infrastructure. Other systems
owned by the Department include safety-sensitive surface transportation systems
and financial systems that are used to manage and disburse over $50 billion in
Federal funds each year. Systems inventory counts for FY 2006 and FY 2007 for
each Operating Administration are detailed in Exhibit C.


RESULTS IN BRIEF
FY 2007 was a particularly challenging year for the Department in managing its
IT resources. In addition to establishing a common IT infrastructure for the new
Headquarters, it had to review, test, and certify security protection in more than
half of its information systems to meet the recertification requirement.

While the Department has completed most of the scheduled security recertification
reviews, the overall effectiveness of its information security program declined this
year because management had to divert resources and attention to resolving

1
    FRA will be relocated in early FY 2008.
2
    The initial network consolidation was limited to Headquarters operations. Operating Administrations are still
    responsible for supporting network operations to their field offices. The Federal Highway Administration is leading
    a task force to evaluate consolidation of field network infrastructure.
                                                                                                3


Headquarters move-related issues. 3 Specifically, management did not meet
Government security standards to protect information systems and did not take
sufficient action to correct identified security deficiencies. We also found that
commercial software products used in departmental systems were not configured
in accordance with security standards and security incidents were incompletely
and/or inaccurately reported.

In terms of correcting the two security weaknesses identified previously in the air
traffic control system—contingency planning and review of operational air traffic
control systems security—FAA demonstrated renewed initiative in undertaking
multiyear correction efforts starting in FY 2007. FAA also made modest progress
in enhancing the implementation of earned value management for major IT
investment projects. Nonetheless, challenges remain in both areas.

These issues are summarized below and detailed in the Findings section,
beginning on page 8.

Failure to Meet Government Security Standards to Protect Information
Systems. According to the National Institute of Standards and Technology
(NIST), risk categorization is key in determining the level of security protection
needed for individual systems. Systems categorized as having a high-risk impact
on the agency’s mission are required to meet a more stringent security standard
than moderate- or low-risk-impact systems. These security standards (referred to
as minimum security requirements) became mandatory for Federal agencies in
March 2007.

Last year we reported a concern in the Department’s risk categorization.
Specifically, FAA categorized all air traffic control systems as having a
moderate-risk impact. We also reported that departmental systems would likely
require security upgrades to meet the minimum security standards in
FY 2007. We continue to find deficiencies in risk categorization and insufficient
implementation of minimum security protection.

• Risk Categorization. NIST guidance emphasizes the importance of performing
  risk categorization on an entitywide basis versus at the individual bureau level.
  During FY 2007, the departmental Chief Information Officer (CIO) issued a
  draft policy requiring high-risk-impact categorization of systems used to
  support the Nation’s critical infrastructure. However, the policy has resulted in
  little change at FAA. Among about 100 systems used to direct air traffic
  control operations—surveillance, navigation, landing, communications,
  weather, and flight plan processing—none were reported as having a high-risk
  impact. Instead, the 19 systems reported by FAA as high-risk impact are
  primarily for administrative functions, such as the procurement system and
3
    During FY 2007, no significant service disruptions to departmental systems were reported.
                                                                                                                  4


      local-area-network systems. Although FAA claims that air traffic control
      systems are properly protected, it has no assurance that minimum security
      standards are being met in protecting these systems in accordance with NIST
      standards and departmental directives for system categorization and testing of
      the appropriate security controls. After this issue was brought to management’s
      attention, the departmental CIO, the FAA Acting Deputy Administrator, and
      the FAA CIO all agreed to collaborate with Air Traffic Organization business
      owners to ensure that air traffic control systems are individually reviewed and
      categorized in accordance with NIST standards and DOT policy, as a key
      priority for FY 2008.

• Minimum Security Protection. Agencies are required to implement different
  levels of security protection for individual systems based on risk
  categorization. Our review of 21 sample systems from the departmental
  inventory revealed that 11 systems from 7 Operating Administrations did not
  meet the minimum security requirements for the risk category assigned to
  them. For example, there were instances in which records containing sensitive
  personally identifiable information are transmitted on the network in clear text.
  The minimum security standards require such information to be encrypted
  during transmission.

• Certification Review of the New IT Infrastructure. Another challenge facing
  the Department is that it has not completed the security certification review of
  the common IT infrastructure at the new Headquarters, which is used to
  support more than 80 application systems, such as grants management systems,
  safety inspection systems, and various administrative systems. This happened
  because the Department experienced complications with the electrical power
  supply in the new Headquarters and had to move the application systems to a
  commercial vendor site before it could complete reviewing, testing, and
  accrediting the expanded common IT environment. Until the planned review
  of the common infrastructure is completed, management cannot provide
  security assurance for the 80-plus application systems because the common IT
  infrastructure, if not properly secured, could cause security risks to all systems
  operating on the infrastructure. 4 The Department needs to retest systems
  security in these application systems after certifying the expanded IT
  infrastructure as adequately secure.

Insufficient Action to Correct Identified Security Deficiencies. Security
deficiencies identified during security certification reviews are tracked and
prioritized for correction through a process called Plan of Action and Milestones
(POA&M). Last year we reported that management had improved this process
significantly to ensure that correction items were prioritized and completed in a

4
    The Department plans to complete testing of the expanded common IT environment for security accreditation in the
    near future.
                                                                                  5


timely manner. This year, we found that management did not exercise the same
amount of attention to correct identified security deficiencies. Most Operating
Administrations still do not have a formalized process to guide this effort. In
addition, the CIO has not yet finalized the departmental POA&M Handbook to
manage the identified weaknesses during the life cycle.

We found that 30 percent of planned corrections (901 out of a total of about 3,000
identified security deficiencies) are overdue for more than 6 months past their
scheduled completion dates. We also found cost estimates to fix 60 percent of the
approximately 3,000 identified security deficiencies missing. Details of Operating
Administrations responsible for delayed corrections and missing cost estimates are
on page 12. This is a clear reversal of the improvement we witnessed last year.

Without reliable cost estimates, management cannot make informed decisions to
prioritize use of limited resources. This may have resulted in delays in and
cancellation of planned correction efforts. For example:

• Cost estimates were missing from 91 percent of overdue correction items,
  including 3 critical deficiencies, such as ineffective password protection to
  limit user access.

• Cost estimates were also missing from 98 percent of canceled correction items,
  including 2 critical deficiencies. Cancelled items are security deficiencies for
  which management accepted the risk of not making corrections. For example,
  management decided to accept the risk of not having proper password controls
  for system administrators for a system used by FAA to manage air traffic
  control flow.

Continuous Deficiencies in Network Computers’ Configuration. To reduce
the risk of hostile attack based on known vulnerabilities in commercial off-the-
shelf software, such as the Windows operating systems and Oracle database
systems, agencies are required to configure such commercial software in
accordance with NIST or agency security standards. Last year we reported that
Operating Administrations’ submissions to the CIO office to support their
compliance with configuration standards were incomplete and inconclusive. As a
result, the Department had no assurance that the commercial software was
properly configured to reduce the risk of being attacked. We found little progress
made in this area during FY 2007, and departmental network computers remain
vulnerable to possible attacks due to improper configuration.

In addition, with the new common IT infrastructure, the Department faces a new
security challenge. The new infrastructure has significantly expanded its ability to
have secure connections on the Internet by using virtual private network (VPN)
access. This has positioned the Department well to support the telecommuting
                                                                                                                      6


initiative and continuity of business operations. However, when employees
connect their home computers to departmental networks, they create security
exposure because their home computers may not be properly secured. 5
Management should explore more secured alternatives to support telecommuting.

Incomplete and Inaccurate Reporting of Security Incidents. During FY 2007,
FAA did not report 40 6 cyber security incidents to the Department and, in turn, to
the central Government authority, the United States Computer Emergency
Readiness Team (US–CERT). Most of these incidents involved viruses in FAA
computers. This happened partially because of inconsistent reporting practices
within FAA. Employing a consistent reporting practice in line with established
departmental policies and procedures should be a prerequisite for FAA to provide
incident monitoring and reporting services to other Operating Administrations—a
new initiative starting in FY 2008. This initiative was recently approved by the
Department in preparation for FAA to become a shared service provider to other
Government agencies for cyber incidence monitoring and reporting.

To better prepare it to become a shared service provider, FAA also needs to
enhance its performance measurement reporting to senior management on security
incidents. We noticed inaccurate reporting in last year’s FAA Performance and
Accountability Report. During FY 2006, FAA had to shut down a portion of air
traffic control systems because of security events. While FAA did a commendable
job in cleaning up the infected computers and enhancing the underlying
configuration management controls, it nonetheless reported to the Secretary,
OMB, and the Congress in its annual Performance and Accountability Report that
“no successful cyber events that significantly disabled or degraded our service”
had taken place.

Renewed Initiatives in Correcting Air Traffic Control System Security
Weaknesses. The President has designated air traffic control systems as part of
the Nation’s critical infrastructure due to the important role commercial aviation
plays in fostering and sustaining the national economy and ensuring citizens’
safety and mobility. In FY 2004, we reported deficiencies in protecting this
critical infrastructure in two areas: (1) continuity planning to restore essential air
service in case of prolonged service disruptions at en route centers and (2) review
of operational air traffic control systems security outside of the computer
laboratory. Last year, we reported inadequate progress in both areas. FAA senior
management pledged aggressive action.


5
    Security concerns on telework have been raised recently among other Federal agencies. For example, the Department
    of Justice has decided to ban the use of home computers for telework.
6
    FAA claimed that 31 of these 40 incidents were either repeated or duplicated incidents that should have been
    previously reported to the Department. However, FAA was not able to provide any evidence that the original
    incidents had been reported. In addition, FAA indicated that two incidents were false-positives and therefore did not
    need to be reported, even though they were not recorded as false-positives in FAA’s official log.
                                                                                 7


During FY 2007, under the Deputy Administrator’s (now Acting Administrator)
direction, FAA undertook renewed initiatives and made modest progress in both
areas, such as developing a concept of operations for business continuity planning
and a methodology to select high-risk operational air traffic control systems for
security review. However, these are multiyear efforts, for which FAA still faces
many uncertainties. Due to the sensitivity of air traffic control systems, we will
issue a separate report detailing the progress and potential challenges associated
with these corrective actions along with recommendations.

Modest Progress in Implementation of Earned Value Management. During
FY 2007, the Department revised its Investment Review Board’s charter by
delegating more responsibilities to individual OA review boards to oversee their
specific IT investments. Regardless of the change in governance responsibility,
establishing clear measurement benchmarks to evaluate major investment projects
such as earned value management (EVM) is key to success. Last year we found
that only 23 percent of major departmental IT investment projects met at least half
of OMB’s criteria for EVM implementation. During FY 2007, 35 percent of all
major departmental IT investment projects met at least half of OMB’s criteria for
EVM implementation, a modest increase from last year. Continued enhancements
in EVM implementation to ensure fiscal discipline with major investment projects
is especially critical in today’s tight economic environment.

We are making a series of recommendations, beginning on page 23, to help the
Department continue to strengthen its information security program and better
oversee major IT investments. In summary, we are recommending that the Chief
Information Officer:

• Enhance the protection of information systems by ensuring that Operating
  Administrations comply with new Government security standards when
  completing their certification and accreditation reviews,
• Enhance correction of identified security deficiencies by working with
  Operating Administrations to develop measures of accountability that would
  hold Operating Administration officials responsible for timely correction of
  security weaknesses,
• Enhance network security by establishing a methodology, including use of
  automated tools, to verify that commercial software products are configured in
  accordance with security standards, and evaluating alternatives to using home
  computers to support telework,
• Ensure accurate reporting of security incidents, and
• Enhance the Department’s implementation of EVM by establishing goals for
  improvement.

A draft of this report was provided to the Department’s Chief Information Officer
on September 28, 2007. On October 4, we received the Department’s Chief
                                                                                  8


Information Officer’s response, which can be found in the appendix. The Chief
Information Officer generally concurred with the report’s findings and
recommendations and will provide details in 30 days, describing the specific
actions and milestones that will be taken to implement the recommendations.


FINDINGS

Government Security Standards to Protect Information Systems
Were Not Met

In our FY 2006 FISMA report, we stated that the Department faced several
challenges in implementing and monitoring security controls to meet Government
standards. This year, we found continued deficiencies in risk categorization of
sensitive systems and implementation of security upgrades required to meet
Government standards. In addition, security recertification review of the
expanded IT infrastructure at the new Headquarters has not been completed. As a
result, management has no security assurance for the 80-plus application systems
operating on this infrastructure.

Risk Categorization for Department’s Sensitive Systems Has Not Been
Accurately Assessed
Last year we reported that air traffic control systems, which are designated part of
the national critical infrastructure, were found to be rated low and moderate in
terms of risk categorization. This appeared to conflict with NIST standards, which
used air traffic control systems as an example of high-risk impact systems in the
Federal Government.

During FY 2007, the CIO office issued a draft policy requiring high-risk-impact
categorization of systems used to support the Nation’s critical infrastructure.
However, the policy has resulted in little change at FAA. In our review this year,
of the nearly 100 FAA air traffic control systems, none had an overall security
categorization of high. FAA did have 19 systems rated high, most of which were
for administrative purposes, such as the procurement system and several local area
networks. Although FAA claims that air traffic control systems are properly
protected, it has no assurance that minimum security standards are being met in
protecting these systems in accordance with NIST standards and departmental
directives for system categorization and testing of the appropriate security
controls.

FAA management stated that if the whole air traffic control system were to be
rated, it should be high, but each system is rated individually. Because of the
redundancy in functionality among the systems, losing one system would not have
a severe impact. However, security controls in NIST 800-53 require that
                                                                                                              9


assessments be completed considering national impact, not just system-level or
organization-level impact. If any air traffic control system that operates on a
national level were to go down for any reason and have a negative impact, that
system should be rated high. After this issue was brought to management’s
attention, the departmental CIO, the FAA Acting Deputy Administrator, and the
FAA CIO all agreed to collaborate with Air Traffic Organization business owners
to ensure that air traffic control systems are individually reviewed and categorized
in accordance with NIST standards and DOT policy, as a key priority for FY 2008.

We also reviewed the categorization of systems that contain personally identifiable
information. In FY 2006, we reported that 28 systems containing personally
identifiable information were improperly rated for confidentiality, 18 were rated
“low” and 10 were not rated. The departmental guidance states that all systems
containing personally identifiable information must have a confidentially rating of
at least “moderate.” 7

Operating Administrations have made progress during FY 2007 in upgrading their
confidentiality system ratings; however, three Operating Administrations are still
deficient in the rating of systems containing personally identifiable information.
Of the 110 systems containing personally identifiable information that were
reported to the CIO Privacy Office, 11 systems’ confidentiality levels are
improperly rated “low” (see Table 1).

                     Table 1. Confidentiality Rating of Systems
                    Containing Personally Identifiable Information
                                         Number of Systems            Number of Systems
                   Operating
                                           with Personally            with a Confidentiality
                 Administrationa
                                       Identifiable Information           Rating of Low
                FAA                                          47                            1
                FHWA                                          8                            3
                FMCSA                                         9                            0
                OST                                          23                            7
                RITA                                          4                            0
                Other Operating
                                                                19                            0
                Administrations
                Total                                          110                           11
                Data source: CIO Privacy Office Inventory of systems containing personally
                identifiable information as of 9/7/2007.
                a
                  See Exhibit C for full Operating Administration names.


Until the systems are rated properly according to departmental policy, the
Department has limited assurance that the Operating Administrations are
implementing and testing appropriate security controls to effectively protect
personally identifiable information.


7
    DOT Information Technology and Information Assurance Policy Number 039: Information Technology: Mapping
    Information Systems to Risk Level Categories.
                                                                                                          10


Minimum    Security                 Standards           Have         Not       Been        Incorporated
Departmentwide
Last year we reported that the Department needed to address stronger security
requirements that would come into play in March 2007, when Federal Information
Processing Standards (FIPS) 200 8 became effective. This standard specifies
minimum security requirements for Federal information systems in 17
security-related areas. Federal agencies must meet the minimum security
requirements through the use of security controls in accordance with NIST Special
Publication 800-53, Recommended Security Controls for Federal Information
Systems. The applicable security controls must be documented in the system
security plan, based on the results of the security assessment or modification of
security controls in the information systems.

This year, in our review of the 21 sample systems, 11 from 7 Operating
Administrations did not provide support in their system security plans that their
systems were compliant with the new minimum security standards (see Table 2).

                       Table 2. FIPS 200 Noncompliant Systems
                                       Number of       Number of Systems Not Compliant
                  Operating
                                        Systems          with New Minimum Security
                Administrationa
                                        Sampled                   Standards
               FAA                              9                                    2
               FHWA                             2                                    2
               FMCSA                            1                                    1
               MARAD                            3                                    3
               NHTSA                            1                                    1
               OST                              4                                    1
               PHMSA                            1                                    1
               Total                          21                                    11
               Data source: Sample Systems’ Certification & Accreditation documents provided
               by system owners through 9/5/2007.
               a
                 See Exhibit C for full Operating Administration names.



These systems are not compliant with the new security standards and could pose
serious security risks. For example, one Operating Administration system with
millions of records containing personally identifiable information that are
transmitted across the network in clear text has not had its security plan updated
since before March 2006. Had this system’s security plan been updated to comply
with the new minimum security standards, these records would have to be
encrypted before they were sent across the network. Operating Administration
management stated that they were not aware of the requirements to upgrade
system security to meet the Government standards prior to their scheduled system
recertification reviews—some of which are not due until 2009. The CIO Office

8
    Federal Information Processing Standards (FIPS) Publication 200, Minimum Security Requirements for Federal
    Information and Information Systems, March 9, 2006.
                                                                                                                     11


needs to provide clear direction to Operating Administrations to ensure timely
compliance with Government security standards.

Certification Review of the New IT Infrastructure Is Not Complete
The Department has not completed the security certification review of the
expanded common IT infrastructure at the new Headquarters. As one of the
critical components of the common IT infrastructure, the campus area network
(CAN) is a backbone network infrastructure that provides connectivity among
departmental Headquarters computers, the Internet, data centers, and remote
offices. Due to electric power complications at the new Headquarters, the CAN
was extended to include a commercial vendor site in Maryland in FY 2007.
Currently, this expanded common IT infrastructure hosts more than 80 Operating
Administration application systems.

Last year we recommended that the Department test security in the new IT
infrastructure before installing Operating Administration application systems. 9 As
part of such testing, the Department conducted a security certification review for
the CAN. However, the security certification review did not cover the segment of
the network located at the commercial vendor site. This happened because the
initial CAN security certification review was conducted in April 2007, prior to its
extension to the commercial vendor site.            Without completing security
certification reviews for the CAN, the most critical component of the
Department’s IT infrastructure, the Department cannot be assured that it is
providing an adequate level of security protection to its more than 80 systems
operating on the infrastructure. 10

According to the CIO office, it plans to complete a certification review of CAN,
including its extension at the commercial vendor site, in the near future. If not
properly secured, the common IT infrastructure could create security risks for all
systems operating on the infrastructure. The Department needs to retest security
in these application systems after certifying the expanded IT infrastructure as
adequately secure. Because the Operating Administrations’ system security
certifications rely on security controls of the CAN, any delay in completing the
common IT infrastructure’s certification would impede Operating Administration
systems’ timely certification.




9
     OIG report “Audit of Information Security Program,” Report Number FI-2007-002, October 23, 2006.
10
     This consolidated IT infrastructure is also included on OMB’s Watch List due to security concerns not related to the
     CAN.
                                                                                                 12


Insufficient Action Has Been Taken To Correct Identified
Security Deficiencies

Remediation of system security weaknesses is a complex process involving
analysis, corrective action planning, budgeting, assignment of resources, and
post-closure verification. This process begins when security weaknesses identified
during certification reviews of departmental systems are documented in the
POA&M database by the Operating Administration that owns the system. The
information that is included in the POA&M database is used by management to
ensure effective oversight of the remediation process and to report the status of
correcting security weaknesses.

Last year we reported that the Department made noticeable improvement from the
previous year in tracking, prioritizing, and correcting system security weaknesses.
A review of the POA&M information this year found that 30 percent of
corrections (901 out of about 3,000 identified security deficiencies) were overdue
for more than 6 months past their scheduled completion dates. We also found cost
estimates to fix 60 percent of the approximately 3,000 identified security
deficiencies missing (see Table 3).

                       Table 3. POA&Ms & Cost Estimates
                                      Number of         Number
                     Number of                                          Number of POA&Ms
   Operating                        POA&Ms with           of
                       Open                                           Overdue 6+ months past
 Administrationa                    Cost Estimates      Overdue
                     POA&Ms                                           planned correction date
                                     Not Identified     POA&Ms
 FAA                        2102                 942         365                                266
 FHWAb                       282                 282         250                                246
 FMCSA                        36                  27           0                                  0
 FRAb                        287                 287         287                                269
 FTA                           1                   1           0                                  0
 MARAD                         4                   4           0                                  0
 NHTSA                         5                   5           0                                  0
 OIG                           7                   2           3                                  1
 OST                         135                 126         105                                  5
 PHMSAb                      105                 105         105                                104
 RITA                         27                  27          27                                 10
 SLSDC                         0                   0           0                                  0
 STB                           0                   0           0                                  0
            Total           2991               1808         1142                               901c
 Percent of Total          100%                 60%         38%                                30%
 Data Source: Enterprise Security Portal data as of 9/5/2007.
 a
   See Exhibit C for full Operating Administration names.
 b
   These Operating Administrations have a high number of POA&Ms overdue 6+ months past their
   planned correction dates in relation to the total number of open POA&Ms.
 c
   Of the corrections overdue for 6+ months, only 3 were categorized as high risk.
                                                                                             13




      Figure 1. Operating Administrations With
       Highest Ratios of Overdue Corrections
                                                                    FHWA, FRA, and PHMSA
300                                                                 all had at least 90 percent
                                                                    of their corrections overdue
250
                                                                    for at least 6 months (see
200                                                                 Figure 1). This is a clear
                                                                    reversal        of       the
150
                                                                    improvement we witnessed
100                                                                 last year, when only 9
                                                                    percent of corrections
 50                                                                 Departmentwide          were
  0                                                                 overdue for more than 6
          FHWA               FRA               PHMSA                months.
                    Open   Overdue 6+ months


Without reliable cost estimates, it is difficult for management to make an informed
decision to prioritize use of limited resources. This may have resulted in delays in
and cancellation of planned correction efforts. For the 1142 POA&Ms recorded as
past due, 91 percent (1040 of 1142) lack cost estimates (see Table 4).

                              Table 4. Overdue POA&Ms
                                               Number with           % Correction
                  Risk
                                Quantity        Cost Not               Cost Not
                 Rating
                                                Identified            Identified
              High                       3                     3              100%
              Medium                  308                   275               89%
              Low                     831                   762               92%
              Total                  1142                  1040               91%
              Data Source: Enterprise Security Portal data as of 9/11/2007.


In addition, for the 380 items in which the risk of not correcting security
deficiencies was accepted by management, as indicated in the POA&M database,
98 percent (374 of 380) lacked cost estimates (see Table 5). Management
normally decides to cancel items in which identified security deficiencies are
deemed not cost-beneficial to correct. Without adequate cost data, however,
management lacks essential information needed to make informed cancellation
decisions. Therefore, management may not have made proper decision in
cancelling the 374 identified security deficiencies, including the 2 rated as high
risk. For example, management decided to accept the risk of not having proper
password controls for system administrators for a system used by FAA to manage
air traffic control flow.
                                                                                      14


                        Table 5. Accepted Risk POA&Ms
                                              Number with            % Correction
                Risk
                              Quantity          Cost Not               Cost Not
               Rating
                                               Identified             Identified
             High                       4                      2                50%
             Medium                    26                    26              100%
             Low                     350                    346                99%
             Total                   380                    374                98%
             Data Source: Enterprise Security Portal data as of 9/11/2007.


Operating Administration management reported they do not have a formalized
process to guide this effort such as data that should be required as input for each
identified security weakness recorded in the database. In addition, the CIO has not
yet finalized the departmental POA&M Handbook to manage the identified
weaknesses during the life cycle, including required information needed as part of
the record in the database. Without information such as cost data, management
lacks data needed to make an informed decision for allocating resources needed to
prioritize or accept risk for identified security weaknesses. As a result, the
Department faces delays in scheduled correction, leaving departmental systems
exposed to vulnerabilities that could be exploited.

Continuous Deficiencies Are Evident in Network Computers’
Configuration

Both OMB and the Department require that the commercial off-the-shelf software
incorporated in departmental computers, such as Windows operating systems and
Oracle database systems, be configured in accordance with security configuration
standards. Last year we reported that the Department had no assurance that the
commercial software was properly configured to reduce the risk of being attacked.
In FY 2007, little progress was made in this area, and departmental network
computers remain vulnerable to attack due to improper configuration. Further,
using employees’ home computers to access departmental networks could present
another security challenge because home computers may not be properly secured.
                                                                                15


Departmental Systems Are Not Properly Configured in Compliance With
Security Baseline Standards

Responding to our recommendations last year, the Department made some
improvement in baseline security configuration implementation. For example, it
started to use its management tracking system—Enterprise Security Portal
(ESP)—to collect data from Operation Administrations about their implementation
of departmental baseline configuration standards, explored an opportunity to
                                                      deploy an automated tool
 Table 6. Status of Departmental Systems Meeting      that could enable the
   Security Baseline Configuration Standards as
      Reported by Operating Administrations
                                                      Department to verify its
                     Total     Number of Systems      systems’ compliance, and
    Operating      Number     Reported to Have Met    drafted new departmental
 Administrationsa     of        Security Baseline     Information         Systems
                   Systems       Configuration
FAA                      264                      15
                                                      Security   Baseline   policy.
FHWA                      25                       3  However, deficiencies in
FMCSA                     23                      22  this area remain. Based on
FRA                       20                      19  the CIO Office’s FISMA
FTA                        5                       5
MARAD                     11                       0
                                                      Weekly Scorecard from
NHTSA                     18                      16  September 7, 2007, only
OIG                        3                       3  126 out of 429 systems have
OST                       42                      29  been reported by Operating
PHMSA                      5                       5
RITA                      10                       9
                                                      Administrations to have met
SLSDC                      1                       0  baseline       configuration
STB                        2                       0  standards (see Table 6 and
Total                    429                     126  Figure 2).
Data Source: Department’s CIO Office FISMA Weekly Scorecard,
9/7/2007.
a
  See Exhibit C for full Operating Administration names.
                                                                                                                                                                                        16


  Figure 2. Operating Administrations’ Total Systems and Percentages of
     Systems Reported as Having Met Baseline Security Configuration
                                Standards
                               264



                         250




                         200
                                                                                       100%                        100%             100%
                                                                      96%       95%
                                                100%                                                      89%                                  90%
                                                 90%
                                                 80%                                                                       69%
                                                 70%
                                                 60%
                                                 50%
     Number of Systems




                                                 40%                                                                                                                    29%
                                                 30%
                                                               12%
                                                 20%    6%
                         150                     10%                                              0%                                                  0%       0%
                                                  0%




                                                                                             A
                                                                                            IG
                                                                                             A
                                                                                      N D




                                                                                             C
                                                      SA




                                                                                      PH T



                                                                                      SL A
                                                                            A

                                                                                      M A




                                                                                      O B
                                                 FM A




                                                                                             ll
                                                       A




                                                                                           S
                                                                                         TS




                                                                                          ra
                                                                                           S

                                                                                          IT
                                                                         FR




                                                                                           D
                                                                                         RA
                                                     W




                                                                                 FT




                                                                                         ST
                                                   FA




                                                                                         O



                                                                                         M
                                                                                         O
                                                    C




                                                                                        S



                                                                                       ve
                                                                                        R
                                                  FH




                                                                                       H
                                                                                       A




                         100




                         50
                                                                                                                               42


                                                                                                                                    29
                                           25
                                                       23 22
                                                                2 0 19                                 18 16
                                     15
                                                                                       11                                                             10   9
                                                3                           5    5                                 3   3                   5     5
                                                                                                                                                                    1           2
                                                                                              0                                                                          0          0
                          0
                                                                                                                                           A
                                                                                                                IG
                                                                                                    A
                                                                                       D




                                                                                                                                                                 C
                                                    SA




                                                                                                                           ST




                                                                                                                                                      A
                                                               A


                                                                         A




                                                                                                                                                                                B
                                           A
                             A




                                                                                                  TS




                                                                                                                                      S
                                                             FR




                                                                                                                                                     IT


                                                                                                                                                               D
                                                                                      RA
                                          W




                                                                      FT




                                                                                                                                                                             ST
                           FA




                                                                                                               O




                                                                                                                                     M
                                                                                                                           O
                                                  C




                                                                                                                                                             S
                                                                                                                                                 R
                                     FH




                                                                                              H
                                                FM




                                                                                                                                    PH
                                                                                 A




                                                                                                                                                           SL
                                                                                            N
                                                                                M




                                                                     Total Systems                Configuration Standards Met



We also found that the CIO Office did not verify the accuracy of Operating
Administrations’ reporting. The CIO Office conducted two quarterly compliance
reviews on 93 randomly selected departmental systems during FY 2007. The
reviews required Operating Administrations to test the selected systems for
baseline configuration compliance. Operating Administrations reported that only
52 systems have been through such a test and provided evidence of this testing.
However, the CIO Office did not review the evidence provided by Operating
Administrations for adequacy of compliance.
                                                                                                           17


As a result, the Department has no assurance that Operating Administration
computer systems have been adequately configured to ensure that effective
security controls are in place. The inadequately configured systems increase
security vulnerabilities, which could have an adverse impact on departmental
operations.

Use of Employee Home Computers for Teleworking Could Create Security
Exposure

The new IT infrastructure enables the Department to rapidly expand remote access
such as VPN to support the Department’s telework initiative and continuity of
business operations. VPN allows departmental employees and contractors to
access information hosted on departmental networks from home or remote
locations. Currently, all Department user accounts are configured to have VPN
access. However, when employees connect their home computers to departmental
networks, it creates security exposure because their computers may not be
properly secured. Meanwhile, the Department has no authority to regulate home
computers, as indicated in the CIO’s July 2007 testimony before the House
Committee on Oversight and Government Reform.

While the Department has developed a policy for implementing secure remote
access, including scanning the user’s computer security profile prior to allowing
access to the Department’s network, 11 it has not been finalized. Currently, the
Department has to rely on users to faithfully follow the user agreement such as
employing appropriate virus-prevention tools that they agreed to when VPN
privileges were granted. This procedural control, however, provides limited
assurance because employees may not be fully aware how their home computers
are configured or used by other family members. The Department of Justice
recently banned the use of home computers for telework because of security
concerns. If home computers that are not adequately secured are used to connect
to the VPN, rather than departmental laptops, they could introduce viruses or
malicious code to the Department’s networks and even become entry points of
unauthorized access to departmental systems. Management should finalize policy
and continue to explore more secure alternatives to support telecommuting.




11
     DOT IT Assurance Policy 2006-23 (draft): Secure Remote Access Implementation and Management Policy.
                                                                                                                        18




Reporting of Security Incidents Has Been Incomplete and
Inaccurate

The Department relies on two entities—the Transportation Cyber Incident
Response Center (TCIRC) and FAA Computer Security Incident Response Center
(CSIRC)—to promote information assurance by performing activities such as
network monitoring, intrusion detection, incident handling, and reporting.

The Department requires that all cyber security incidents 12 be reported to TCIRC.
It is then TCIRC’s responsibility to report the security incidents to US–CERT.
We found that CSIRC did not report all incidents to TCIRC. Based on FAA’s
internal incidents log, 616 security events were detected between October 2006
and June 2007. CSIRC categorized these events as 212 incidents and 404
findings. According to CSIRC, an incident is a confirmed cyber event, which
should be reported, while a finding is a cyber event that is under investigation and
should not be reported. However, we found that CSIRC did not report 40
incidents (about 20 percent) and, conversely, incorrectly reported 30 findings to
TCIRC. FAA claimed that 31 of these 40 incidents were either repeated or
duplicated incidents. However, FAA was not able to provide any evidence that
the original incidents had been reported. In addition, FAA indicated that two
incidents were false-positives and did not need to be reported, even though they
were not recorded as false-positives in FAA’s official log.

This inconsistent reporting happened partly because CSIRC did not have
documented procedures for escalating findings to incidents once they were
confirmed and then reporting these to TCIRC. In addition, communication
breakdowns appear to be another contributing factor for incidents going
unreported. For example, some incidents were detected during its weekend shift
but were not relayed to the weekday shift for TCIRC reporting.

The majority of the unreported incidents involved virus infections of FAA
computers. Because these incidents did not get reported to TCIRC, they were, in
turn, left unreported to US–CERT. In order for proper coordination for defense
against and response to cyber attacks Governmentwide, all incidents must be
reported to the Department and US–CERT.

Recently, TCIRC’s operation has been merged into FAA CSIRC as a consolidated
unit known as the Cyber Security Management Center (CSMC). This merge
initiative was approved by the Department in positioning FAA to become an

12
     An incident is defined as the act of violating an explicit or implied security policy. It includes but is not limited to
     attempts to gain unauthorized access to a system or its data, unwanted disruption or denial of service, or the
     unauthorized use of a system for the processing or storage of data.
                                                                                                         19


information systems security shared service provider to offer cyber security
services to other Government agencies. Starting in FY 2008, CSMC will provide
incident monitoring and reporting services to other Operating Administrations.
Employing a consistent reporting practice in line with established departmental
policies and procedures should be a prerequisite for FAA to provide services to the
Department, and eventually to other Government agencies, as a shared service
provider for information system security.

To better prepare it to become a shared service provider, FAA also needs to
enhance its performance measurement reporting to senior management on security
incidents. During FY 2006, a cyber incident caused severe service degradation
and forced FAA to shut down a portion of air traffic control systems because of a
security incident. FAA thoroughly investigated the incident, identified the cause
of the problem, and implemented countermeasures to prevent it from occurring
again. Nonetheless, it inaccurately reported to the Secretary, OMB, and the
Congress, in its Performance and Accountability Report, that “no successful cyber
events that significantly disabled or degraded our service” had taken place.

FAA Took Renewed Initiatives in Correcting Air Traffic Control
System Security Weaknesses

The President has designated FAA’s air traffic control systems as part of the
Nation’s critical infrastructure, due to the important role commercial aviation
plays in fostering and sustaining the national economy and ensuring citizens’
safety and mobility. In FY 2004, we reported deficiencies in protecting this
critical infrastructure in two areas: (1) continuity planning to restore essential air
service in case of prolonged service disruptions at en route centers and (2) review
of operational air traffic control systems security outside of the computer
laboratory. Last year, we reported inadequate progress in both areas. FAA senior
management pledged aggressive action.

FAA’s renewed initiatives during 2007 were directly related to the leadership
provided by the Deputy Administrator (now Acting Administrator) and
demonstrated modest progress in developing a back-up continuity capability for
restoring essential en route air traffic control services. However, FAA has
encountered several challenges.

• Measuring the loss of each en route center’s impact on the National Airspace
  System. 13 FAA’s plan estimates restoration of 80 percent of any affected
  en route center’s capabilities within 3 weeks at a designated recovery site;
  however, the impact that a disabled center will have on the National Airspace
  System as a whole has not been assessed. Since en route centers rely on

13
  The National Airspace System is an interconnected system of airports, air traffic facilities and equipment,
   navigational aids, and airways.
                                                                                                                      20


       adjacent centers to efficiently manage air traffic, the loss of each center could
       cause a different ripple effect throughout the entire system. In order for FAA
       to better understand the overall impact, it will need to conduct an impact
       analysis on the effect that the loss of 20 percent of operational capability at
       each en route center would have on the entire system. Because the plan would
       shift functionality of the disabled center to the FAA recovery site located at its
       Technical Center in Atlantic City, NJ, the analysis should also determine the
       impact that an activated recovery plan will have on the Technical Center’s core
       mission—developing and testing systems used to support air traffic control
       operations and aircraft safety.

• Resolving continuity plan technical and resource concerns. The success of the
  continuity plan hinges on FAA’s ability to overcome logistical challenges.
  These challenges include rerouting voice communications and surveillance
  signals from the affected en route center to the recovery center, ensuring that
  the spare en route center at the Technical Center is properly staffed in the event
  it is activated, and coordinating with the appropriate labor unions for human
  resource management. Another resource concern involves its funding. FAA
  has budgeted $12 million for developing and implementing the continuity plan.
  However, this funding level was not based on sufficient analysis or cost
  estimates; rather, it was obtained by reallocating excess funds from current and
  ongoing FAA projects. FAA should complete a cost and schedule analysis to
  better determine the estimated costs and use these figures to secure additional
  funding commitments, if needed.

Regarding reviews of operational air traffic control systems security, FAA
developed a methodology to select high-risk systems located in the field for
testing. In fact, FAA went beyond our recommendation and applied this
methodology to systems other than those used for air traffic control. However,
FAA did not meet its commitment to us to complete its reviews of all TRACON
and tower systems by the end of FY 2007. 14 Further, despite the improved
site-selection methodology, FAA did not enhance its methodology to help identify
software differences between the baseline systems at the Tech Center and the
operational air traffic control systems in the field. This deficiency could weaken
overall security protection because vulnerabilities could inadvertently be created
when software changes are made to meet local (field site) operational needs, as
evidenced in our previous audit reports. Due to the sensitivity of air traffic control
systems, we will issue a separate report detailing progress, potential challenges,
and recommendations.



14
     A Terminal Radar Approach Control facility (TRACON) is an Air Traffic Control Center usually located within the
     vicinity of a large airport that controls aircraft within 30-50 nautical miles of the airport between the surface and
     10,000 feet. Towers are located on the airport and control landing and departing aircraft.
                                                                                                           21


Modest Progress Was Made in Implementing Earned Value
Management

Since FY 2002, OMB has required the use of EVM as a project management tool
for major IT investments. This process is intended to ensure that data produced
through EVM are reliable enough to allow objective reporting of project status,
produce early warning signs of impending schedule delays and cost overruns, and
provide estimates of anticipated costs at completion based on actual progress made
against the planned work.

As stated in last year’s report, EVM can have a significant impact on the success
of an IT acquisition because it heightens departmental Investment Review Board
(IRB) visibility into whether the major IT investment is on target with respect to
cost, schedule, and technical performance. 15 We have made recommendations in
the past that would require Operating Administration management to improve
EVM practices to ensure that the IRB and OMB have reliable and quantifiable
data available with which to make effective IT investment decisions.

This year, Operating Administrations reported that 35 percent of major
departmental IT investments met at least half of OMB’s criteria for EVM
implementation, OMB’s memorandum M-05-23,16 which lists 32 criteria for EVM
compliance. This represents a modest improvement from the 23 percent reported
last year (see Table 7).

              Table 7. Departmental Major IT Investment EVM Status
                                                                     OMB’s EVM
                                Major IT                (Meeting 50 percent or greater criteria)
        Operating             Investments
      Administrationa          (Requiring                 FY 2006                          FY 2007
                                 EVM)            Investments        Percent      Investments         Percent
     FAA                                   21               6          29%                10            48%
     Other                                 10               1          10%                  1           10%
     Total                                 31               7          23%                11            35%
     Data Source: Department’s EVM Quarterly Report, 5/2007, and FAA EVM Self Assessment, 6/2007.
     a
       See Exhibit C for full Operating Administration names.


While FAA made more progress than other Operating Administrations in
enhancing EVM implementation, it still faces a significant challenge and requires
continued management attention. In FY 2007 OMB identified 22 departmental
major investments as high-risk and required the Department to promote more
effective oversight by establishing and validating performance measurement
baselines, specifically through the use of EVM, for 12 investments. FAA is
responsible for managing all of these 12 high-risk investment projects, 5 of which
have not met half of the OMB EVM implementation requirements. One of these
15
     OIG Report “Audit of Information Security Program,” Report Number FI-2007-002, October 23, 2006.
16
     Improving Information Technology (IT) Project Planning and Execution, OMB M-05 23, August 4, 2005.
                                                                                              22


systems is the Automatic Dependent Surveillance-Broadcast (ADS-B) system.
Congress specifically requires FAA to use EVM to manage development cost and
schedule because of its importance to future air traffic control operations. These
five investments account for about $10 billion in life-cycle cost estimates; half of
the total high-risk investment life-cycle estimated cost (see Table 8).

                 Table 8. FAA Major High-Risk IT Investments
                                                               Project Met         Project Met
                                                              50% of OMB’s        50% of OMB’s
                                              Life-Cycle
                                                                   EVM                 EVM
        High-Risk IT Investments                Dollars
                                                             Implementation      Implementation
                                             (in Millions)
                                                              Criteria in FY      Criteria in FY
                                                                  2006                2007
       Automated Surface Observing
 1     System/Automated Weather                    $1,075                  NO                NO
       Observing System (ASOS/AWOS)
       Wide Area Augmentation System
 2                                                 $4,225                  NO                NO
       (WAAS)
       FAA Telecommunications
 3                                                 $2,289                  NO                NO
       Infrastructure (FTI)
       System-Wide Information                                          new
 4                                                   $431                                    NO
       Management (SWIM)                                         development
       Automatic Dependent                                              new
 5                                                 $2,341                                    NO
       Surveillance-Broadcast (ADS-B)                            development
       Sub-total                                  $10,361
       Standard Terminal Automation
 6                                                 $3,580                  NO               YES
       Replacement System (STARS)
       Terminal Radar Digitizing,
 7     Replacement, and Establishment              $1,148                  NO               YES
       (TRDRE) (ASR-11)
       Oceanic Automation System:
 8     Advanced Technologies and                   $1,605                  NO               YES
       Oceanic Procedures (ATOP)
       Next Generation VHF Air/Ground
 9                                                   $440                YES                YES
       Communications (NEXCOM)
       En Route Automation
 10                                                $2,843                YES                YES
       Modernization (ERAM)
       Terminal Automation
 11    Modernization and Replacement                 $178                YES                YES
       (TAMR)
 12    Traffic Flow Management (TFM)                $968                 YES                YES
                                Sub-total         $10,762
                                   Total          $21,123
 Data Source: FAA EVM Self-Assessment, 6/2007, and OMB High Risk IT Projects, 6/30/2007.

Another area requiring management attention is that the CIO Office has not
developed procedures to verify Operating Administrations’ EVM progress
reporting. During FY 2007, the CIO Office devoted resources to other higher
priority initiatives, such as the move to the new Headquarters and revising IRB
charters for IT governance issues.     However, the CIO Office continues to use
these EVM data submitted by the Operating Administrations to report the status of
investments to OMB and senior departmental officials. Until the Department
                                                                                23


adequately implements EVM processes, it has limited assurance that the
information used for tracking the cost, schedule, and performance of its
investments is reliable. As reported last year, the CIO Office needs to develop a
work plan to guide and measure EVM implementation in the Department.

RECOMMENDATIONS
In order to strengthen the Department’s information security program, we
recommend that the Chief Information Officer:

Enhance the protection of information systems by:
1.   Working with the Acting FAA Administrator to establish target dates for
     correcting air traffic control systems’ risk categorization in accordance with
     departmental policy;
2.   Working with the affected Operating Administrations to ensure proper risk
     categorization and security protection of systems containing personally
     identifiable information;
3.   Requiring Operating Administration CIOs and system owners to identify and
     implement security upgrades needed to meet minimum security standards by
     March 31, 2008; and
4.   Establishing a security test and evaluation process for all departmental
     systems operating on the common IT infrastructure after the security controls
     review is complete for the expanded infrastructure.

Enhance correction of identified security deficiencies by:
5.   Working with Operating Administrators to develop measures of
     accountability that would hold Operating Administration CIOs and system
     owners responsible for timely correction, and decisions to support
     cancellations, of identified security weaknesses, such as incorporating these
     measures as part of their performance standards.

Enhance network security configuration by:
6.   Working with Operating Administrations to establish an effective
     methodology to ensure that commercial software products used in
     departmental systems are configured in accordance with security standards;
     and deploying an automated tool to systematically verify compliance with
     departmental baseline configuration standards; and
7.   Finalizing the secure remote access implementation and management policy;
     and continuing to explore alternatives to using employee home computers for
     telework, such as having a pool of Government-issued laptop computers that
     are properly configured and in compliance with departmental security
     standards to support telework.
                                                                              24



Ensure the consistency and timeliness of security incident reporting by:
8.   Directing the FAA CSIRC to establish consistent procedures to ensure that
     all security incidents are reported to the Department and US–CERT in a
     timely manner;
9.   Conducting periodic reviews of the effectiveness of FAA’s security incident
     reporting practice; and
10. Working with the FAA CIO to ensure accurate security performance
    measurement reporting in the Performance and Accountability Report to
    OMB and the Congress.

Enhance the Department’s implementation of earned value management by:
11. Working with Operating Administration CIOs to establish goals for
    improving EVM implementation in all major investment projects; and
12. Performing an EVM system compliance assessment based on Operating
    Administration progress reporting.



MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

A draft of this report was provided to the Department’s Chief Information Officer
on September 28, 2007. On October 4, we received the Department’s Chief
Information Officer’s response, which can be found in the appendix. The Chief
Information Officer generally concurred with the report’s findings and
recommendations and will provide details in 30 days, describing the specific
actions and milestones that will be taken to implement the recommendations.
                                                                                 25


ACTIONS REQUIRED

We will review the Chief Information Officer’s detailed action plans to determine
whether they satisfy the intent of our recommendations. All corrections are
subject to follow-up provisions in DOT Order 8000.1.C. We appreciate the
courtesies and cooperation of the CIO Office and the Operating Administrations’
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1959; David Dobbs, Principal Assistant Inspector
General for Auditing and Evaluation, at (202) 366-0500; or Rebecca C. Leng,
Assistant Inspector General for Financial and Information Technology Audits, at
(202) 366-1496.


                                         #

cc: Deputy Secretary
    Assistant Secretary for Budget and Programs/Chief Financial Officer
    Acting Federal Aviation Administrator
    CIO Council Members
    Martin Gertel, M-1
                                                                                                                                                                                                          26
                  EXHIBIT A. OIG INPUT TO FISMA REPORT
                                                                         Question 1: FISMA Systems Inventory
1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an agency.
In the table below, identify the number of agency and contractor information systems, and the number reviewed, by component/bureau and FIPS 199 system impact level (high, moderate, low, or not categorized).
Extend the worksheet onto subsequent pages if necessary to include all Component/Bureaus.
Agency systems shall include information systems used or operated by an agency. Contractor systems shall include information systems used or operated by a contractor of an agency or other organization on behalf of an
agency. The total number of systems shall include both agency systems and contractor systems.
Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency; therefore, self reporting by contractors does not meet the
requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.

     Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
2. For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number and percentage of systems which have: a current certification
and accreditation, security controls tested and reviewed within the past year, and a contingency plan tested in accordance with policy.
                                                                                 Question 1                                                                                      Question 2
                                           a. Agency Systems                  b. Contractor               c. Total Number of              a. Number of systems            b. Number of systems              c. Number of systems
                                                                                 Systems                       Systems                        certified and                 for which security             for which contingency
                                                                                                        (Agency and Contractor                 accredited                   controls have been             plans have been tested
                                                                                                               systems)                                                   tested and reviewed in             in accordance with
                                                                                                                                                                               the past year                        policy
                                                                                                                           Total
Bureau         FIPS 199 System                            Number                         Number           Total                             Total            % of           Total            % of           Total            % of
                                          Number                         Number                                           Number
 Name          Impact Level                              Reviewed                       Reviewed         Number                            Number            Total         Number            Total         Number            Total
                                                                                                                         Reviewed
               High                             19                0              0                0            19                 0                 0                               0                              0
               Moderate                        159                2              7                0           166                 2                 2         100%                  1           50%                1            50%
  FAA          Low                              75                6              4                1            79                 7                 7         100%                  6           86%                0             0%
               Not Categorized                   0                0              0                0             0                 0                 0                               0                              0
               Sub-total                       253                8             11                1           264                 9                 9         100%                  7           78%                1            11%
               High                              6                0              0                0             6                 0                 0                               0                              0
               Moderate                         13                2              1                0            14                 2                 0            0%                 0            0%                0             0%
 FHWA          Low                               5                0              0                0             5                 0                 0                               0                              0
               Not Categorized                   0                0              0                0             0                 0                 0                               0                              0
               Sub-total                        24                2              1                0            25                 2                 0            0%                 0            0%                0             0%
               High                              1                0              0                0             1                 0                 0                               0                              0
               Moderate                         21                1              0                0            21                 1                 1         100%                  0            0%                1           100%
FMCSA          Low                               1                0              0                0             1                 0                 0                               0                              0
               Not Categorized                   0                0              0                0             0                 0                 0                               0                              0
               Sub-total                        23                1              0                0            23                 1                 1         100%                  0            0%                1           100%
               High                              0                0              0                0             0                 0                 0                               0                              0
               Moderate                         19                0              0                0            19                 0                 0                               0                              0
  FRA          Low                               1                0              0                0             1                 0                 0                               0                              0
               Not Categorized                   0                0              0                0             0                 0                 0                               0                              0
               Sub-total                        20                0              0                0            20                 0                 0                               0                              0
               High                              0                0              0                0             0                 0                 0                               0                              0
               Moderate                          3                0              0                0             3                 0                 0                               0                              0
  FTA          Low                               2                0              0                0             2                 0                 0                               0                              0
               Not Categorized                   0                0              0                0             0                 0                 0                               0                              0
               Sub-total                         5                0              0                0             5                 0                 0                               0                              0
               High                              0                0              0                0             0                 0                 0                               0                              0
               Moderate                          7                3              0                0             7                 3                 1           33%                 0            0%                0             0%
MARAD          Low                               4                0              0                0             4                 0                 0                               0                              0
               Not Categorized                   0                0              0                0             0                 0                 0                               0                              0
               Sub-total                        11                3              0                0            11                 3                 1           33%                 0            0%                0             0%
               High                              0                0              0                0             0                 0                 0                               0                              0
               Moderate                          7                0              3                1            10                 1                 1         100%                  0            0%                1           100%
NHTSA          Low                               8                0              0                0             8                 0                 0                               0                              0
               Not Categorized                   0                0              0                0             0                 0                 0                               0                              0
               Sub-total                        15                0              3                1            18                 1                 1         100%                  0            0%                1           100%
               High                              0                0              0                0             0                 0                 0                               0                              0
               Moderate                          2                0              0                0             2                 0                 0                               0                              0
  OIG          Low                               1                0              0                0             1                 0                 0                               0                              0
               Not Categorized                   0                0              0                0             0                 0                 0                               0                              0
               Sub-total                         3                0              0                0             3                 0                 0                               0                              0
               High                              5                2              0                0             5                 2                 2         100%                  1           50%                0             0%
               Moderate                         23                2              0                0            23                 2                 2         100%                  1           50%                0             0%
  OST          Low                              14                0              0                0            14                 0                 0                               0                              0
               Not Categorized                   0                0              0                0             0                 0                 0                               0                              0
               Sub-total                        42                4              0                0            42                 4                 4         100%                  2           50%                0             0%
               High                              0                0              0                0             0                 0                 0                               0                              0
               Moderate                          3                1              0                0             3                 1                 1         100%                  0            0%                1           100%
PHMSA          Low                               2                0              0                0             2                 0                 0                               0                              0
               Not Categorized                   0                0              0                0             0                 0                 0                               0                              0
               Sub-total                         5                1              0                0             5                 1                 1         100%                  0            0%                1           100%
               High                              0                0              0                0             0                 0                 0                               0                              0
               Moderate                          9                0              0                0             9                 0                 0                               0                              0
 RITA          Low                               1                0              0                0             1                 0                 0                               0                              0
               Not Categorized                   0                0              0                0             0                 0                 0                               0                              0
               Sub-total                        10                0              0                0            10                 0                 0                               0                              0
               High                              0                0              0                0             0                 0                 0                               0                              0
               Moderate                          0                0              0                0             0                 0                 0                               0                              0
SLSDC          Low                               1                0              0                0             1                 0                 0                               0                              0
               Not Categorized                   0                0              0                0             0                 0                 0                               0                              0
               Sub-total                         1                0              0                0             1                 0                 0                               0                              0
               High                              0                0              0                0             0                 0                 0                               0                              0
               Moderate                          2                0              0                0             2                 0                 0                               0                              0
  STB          Low                               0                0              0                0             0                 0                 0                               0                              0
               Not Categorized                   0                0              0                0             0                 0                 0                               0                              0
               Sub-total                         2                0              0                0             2                 0                 0                               0                              0
               High                             31                2              0                0            31                 2                 2         100%                  1           50%                0             0%
Agency         Moderate                        268               11             11                1           279                12                 8          67%                  2           17%                4            33%
Totals         Low                             115                6              4                1           119                 7                 7         100%                  6           86%                0             0%
               Not Categorized                   0                0              0                0             0                 0                 0                               0                              0
               Total                           414               19             15                2           429                21                17           81%                 9           43%                4            19%



 Exhibit A. OIG Input to FISMA Report
                                                                                                     27



                                         Question 3:
    Evaluation of Oversight of Contractor Systems and Quality of Agency System Inventory
           The agency performs oversight and evaluation to ensure
           information systems used or operated by a contractor of the
           agency or other organization on behalf of the agency meet the
           requirements of FISMA, OMB policy and NIST guidelines,
           national security policy, and agency policy.
           Agencies are responsible for ensuring the security of information
           systems used by a contractor of their agency or other organization
           on behalf of their agency; therefore, self reporting by contractors
           does not meet the requirements of law. Self-reporting by another
                                                                                        Almost Always
           Federal agency, for example, a Federal service provider, may be
    3.a.   sufficient. Agencies and service providers have a shared                  (96-100% of the time)
           responsibility for FISMA compliance.
           Response Categories:
            - Rarely- for example, approximately 0-50% of the time
            - Sometimes- for example, approximately 51-70% of the time
            - Frequently- for example, approximately 71-80% of the time
            - Mostly- for example, approximately 81-95% of the time
            - Almost Always- for example, approximately 96-100% of the
               time
           The agency has developed a complete inventory of major
           information systems (including major national security
           systems) operated by or under the control of such agency,
           including an identification of the interfaces between each such
           system and all other systems or networks, including those not
           operated by or under the control of the agency.
                                                                                 Inventory is 96-100% complete
    3.b.   Response Categories:
            -   The inventory is approximately 0-50% complete
            -   The inventory is approximately 51-70% complete
            -   The inventory is approximately 71-80% complete
            -   The inventory is approximately 81-95% complete
            -   The inventory is approximately 96-100% complete

           The IG generally agrees with the CIO on the number of
    3.c.                                                                                     Yes
           agency-owned systems. Yes or No.

           The IG generally agrees with the CIO on the number of
           information systems used or operated by a contractor of the
    3.d.                                                                                     Yes
           agency or other organization on behalf of the agency. Yes or
           No.
           The agency inventory is maintained and updated at least
    3.e.   annually.                                                                         Yes
           Yes or No.

           If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please identify the
           known missing systems by Component/Bureau, the Unique Project Identifier (UPI) associated with
    3.f.
           the system as presented in your FY2008 Exhibit 53 (if known), and indicate if the system is an
           agency or contractor system.




Exhibit A. OIG Input to FISMA Report
                                                                                                        28


                                              Question 4:
                    Evaluation of Plan of Action and Milestones (POA&M) Process
    Assess whether the agency has developed, implemented, and is managing an agency-wide plan of action
    and milestones (POA&M) process. Evaluate the degree to which each statement reflects the status in your
    agency by choosing from the responses provided. If appropriate or necessary, include comments in the
    area provided.
    For each statement in items 4.a. through 4.f., select the response category that best reflects the agency's
    status.
    Response Categories:
     - Rarely- for example, approximately 0-50% of the time
     - Sometimes- for example, approximately 51-70% of the time
     - Frequently- for example, approximately 71-80% of the time
     - Mostly- for example, approximately 81-95% of the time
     - Almost Always- for example, approximately 96-100% of the time
          The POA&M is an agency-wide process, incorporating all
          known IT security weaknesses associated with information                         Sometimes
    4.a.
          systems used or operated by the agency or by a contractor of                (51-70% of the time)
          the agency or other organization on behalf of the agency.
           When an IT security weakness is identified, program officials                   Sometimes
    4.b.   (including CIOs, if they own or operate a system) develop,
           implement, and manage POA&Ms for their system(s).                          (51-70% of the time)

           Program officials and contractors report their progress on                    Almost Always
    4.c.   security weakness remediation to the CIO on a regular basis
           (at least quarterly).                                                      (96-100% of the time)

           Agency CIO centrally tracks, maintains, and reviews POA&M                     Almost Always
    4.d.
           activities on at least a quarterly basis.                                  (96-100% of the time)

                                                                                         Almost Always
    4.e.   IG findings are incorporated into the POA&M process.
                                                                                      (96-100% of the time)

           POA&M process prioritizes IT security weaknesses to help                        Frequently
    4.f.   ensure significant IT security weaknesses are addressed in a
           timely manner and receive appropriate resources.                           (71-80% of the time)

    Comments:




Exhibit A. OIG Input to FISMA Report
                                                                                                            29


                                              Question 5:
                       IG Assessment of the Certification and Accreditation Process
    Provide a qualitative assessment of the agency's certification and accreditation process, including
    adherence to existing policy, guidance, and standards. Provide narrative comments as appropriate.
    Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and Accreditation
    of Federal Information Systems" (May 2004) for certification and accreditation work initiated after May 2004.
    This includes use of the FIPS 199, "Standards for Security Categorization of Federal Information and Information
    Systems" (February 2004) to determine a system impact level, as well as associated NIST document used as
    guidance for completing risk assessments and security plans.

           The IG rates the overall quality of the Agency's certification
           and accreditation process as:
           Response Categories:
    5.a.    -   Excellent                                                                    Satisfactory
            -   Good
            -   Satisfactory
            -   Poor
            -   Failing

                                                                                Security plan                    Yes

           The IG's quality rating included or considered the following         System impact level              Yes
    5.b.
           aspects of the C&A process:
                                                                                System test and
                                                                                                                 Yes
                                                                                evaluation

                                                                                Security control testing         Yes

                                                                                Incident handling                Yes

                                                                                Security awareness
                                                                                                                 Yes
                                                                                training

                                                                                Configurations/patching          Yes

                                                                                Other: Contingency Planning

    Comments:         Item 5.a. We identified a concern with FAA’s risk-impact analyses of air traffic control systems
    in both FYs 2006 and 2007. Specifically, of about 100 systems used to direct air traffic control operations, none
    were reported as having a high-risk impact. Systems identified by FAA as high-risk impact are primarily for
    administrative functions, such as the procurement system. After this issue was brought to management’s
    attention again this year, the departmental CIO, the FAA Acting Deputy Administrator, and the FAA CIO all
    agreed to collaborate with Air Traffic Organization business owners to ensure that air traffic control systems are
    individually reviewed and categorized in accordance with NIST standards and DOT policy, as a key priority for
    FY 2008. We considered this commitment in our evaluation of the overall quality of the Department’s
    certification and accreditation process. We plan to follow up with FAA on this issue throughout FY 2008.




Exhibit A. OIG Input to FISMA Report
                                                                                  30


                                           Question 6:
           IG Assessment of Privacy Program and Privacy Impact Assessment (PIA) Process
            Provide a qualitative assessment of the agency's Privacy
            Impact Assessment (PIA) process, as discussed in Section D
            II.4 (SAOP reporting template), including adherence to
            existing policy, guidance, and standards.
            Response Categories:
                                                                           Good
    6.a.     -   Response Categories:
             -   Excellent
             -   Good
             -   Satisfactory
             -   Poor
             -   Failing

    Comments:


            Provide a qualitative assessment of the agency's progress to
            date in implementing the provisions of M-06-15,
            "Safeguarding Personally Identifiable Information" since the
            most recent self-review, including the agency's policies and
            processes, and the administrative, technical, and physical
            means used to control and protect personally identifiable
            information (PII).
                                                                           Good
    6.b.    Response Categories:
             -   Response Categories:
             -   Excellent
             -   Good
             -   Satisfactory
             -   Poor
             -   Failing
    Comments:




Exhibit A. OIG Input to FISMA Report
                                                                                                            31


                                                   Question 7:
                                            Configuration Management

           Is there an agency-wide security configuration policy?
    7.a.                                                                                           Yes
           Yes or No.

    Comments:         Currently, the Department has a draft policy called DOT Information Technology and
                      Information Assurance policy 2007-XX: FISMA Information System Security Baseline
                      configuration policy. When it becomes the final, this policy supersedes departmental IA/IT
                      policy, issued on April 3, 2006

           Approximate the extent to which applicable information
           systems apply common security configurations established by
           NIST.
           Response categories:
    7.b.                                                                                          Rarely
            -   Rarely- for example, approximately 0-50% of the time
            -   Sometimes- for example, approximately 51-70% of the time                   (0-50% of the time)
            -   Frequently- for example, approximately 71-80% of the time
            -   Mostly- for example, approximately 81-95% of the time
            -   Almost Always- for example, approximately 96-100% of the
                time

                                                      Question 8:
                                                  Incident Reporting
    Indicate whether or not the agency follows documented policies and procedures for reporting incidents
    internally, to US-CERT, and to law enforcement. If appropriate or necessary, include comments in the
    area provided below.

           The agency follows documented policies and procedures for
    8.a.                                                                                           Yes
           identifying and reporting incidents internally. Yes or No.

           The agency follows documented policies and procedures for
    8.b.   external reporting to US-CERT.                                                          Yes
           Yes or No. (http://www.us-cert.gov)

           The agency follows documented policies and procedures for
    8.c.   reporting to law enforcement.                                                           Yes
           Yes or No.

    Comments:         While we answered “Yes” to item 8a, we found that FAA did not report 40 security incidents,
                      which account for approximately 14% of the total security incidents in the first three quarters of
                      FY 2007, to the Department. FAA claimed that 31 of these 40 incidents were either repeated or
                      duplicated incidents. However, FAA was not able to provide any evidence that the original
                      incidents had been reported. In addition, FAA indicated that two incidents were false-positives
                      and did not need to be reported, even though they were not recorded as false-positives in FAA’s
                      official log.




Exhibit A. OIG Input to FISMA Report
                                                                                             32


                                                 Question 9:
                                        Security Awareness Training
    Has the agency ensured security awareness training of all employees,
    including contractors and those employees with significant IT
    security responsibilities?
    Response Categories:                                                        Frequently
     -   Rarely- or approximately 0-50% of employees                       (71-80% of employees)
     -   Sometimes- or approximately 51-70% of employees
     -   Frequently- or approximately 71-80% of employees
     -   Mostly- or approximately 81-95% of employees
     -   Almost Always- or approximately 96-100% of employees

                                                Question 10:
                                          Peer-to-Peer File Sharing
    Does the agency explain policies regarding peer-to-peer file sharing
    in IT security awareness training, ethics training, or any other               Yes
    agency wide training? Yes or No.

                                              Question 11:
                                    E-Authentication Risk Assessments

    The agency has completed system e-authentication risk assessments.
                                                                                   Yes
    Yes or No.




Exhibit A. OIG Input to FISMA Report
                                                                              33




EXHIBIT B. SCOPE AND METHODOLOGY
During FY 2007, we fulfilled the requirements of the Federal Information Security
Management Act of 2002 by reviewing the progress made in meeting the
minimum Government security standards to protect sensitive information systems
and data, determining whether the network operating environment at the
Department’s new Headquarters building is secure, identifying corrections made
to security weaknesses previously identified, and evaluating the Department’s use
of earned value management for its major IT investment projects. In addition, we
sampled 21 systems that had undergone system security reviews to determine
whether the Operating Administrations had complied with governmental and
departmental standards in assessing system risks, identifying security
requirements, testing security controls, and accrediting systems to support
business operations.

We assessed the Department’s progress in correcting weaknesses identified in last
year’s FISMA review and contributed to the FISMA report by rating departmental
progress in areas specified by OMB.

We used the audit methodologies recommended by the Government
Accountability Office and guidelines issued by other Government authorities such
as the National Institute of Standards and Technology. We also used commercial
scanning software to assess network vulnerabilities.

We performed our information security review work throughout FY 2007,
focusing on FISMA evaluation between March and September 2007 at
departmental and Operating Administration Headquarters offices in the
Washington, DC, metropolitan area. This performance audit was conducted in
accordance with Generally Accepted Government Auditing Standards prescribed
by the Comptroller General of the United States and included such tests as we
considered necessary to detect fraud, waste, and abuse.

Previous audit reports on the Department’s information security program issued in
response to the FISMA legislative mandate (formerly the Government Information
Security Reform Act [GISRA]) include:

DOT Information Security Program, FI-2007-002, October 23, 2006;
DOT Information Security Program, FI-2006-002, October 7, 2005;
DOT Information Security Program, FI-2005-001, October 1, 2004;
DOT Information Security Program, FI-2003-086, September 25, 2003;
DOT Information Security Program, FI-2002-115, September 27, 2002; and
DOT Information Security Program, FI-2001-090, September 7, 2001.



Exhibit B. Scope and Methodology
                                                                                                    34




EXHIBIT C. DEPARTMENTAL OPERATING ADMINISTRATIONS
AND SYSTEM INVENTORY COUNTS
Operating Administration                                  Acronym           FY 2006       FY 2007

Federal Aviation Administration                              FAA                263           264

Federal Highway Administration                              FHWA                 23            25

Federal Motor Carrier Safety Administration                FMCSA                 22            23

Federal Railroad Administration                              FRA                 22            20

Federal Transit Administration                               FTA                   6            5

Maritime Administration                                    MARAD                 12            11

National Highway Traffic Safety
                                                           NHTSA                 18            18
Administration

Office of Inspector General                                   OIG                  3            3

Office of the Secretary                                      OST                 40            42

Pipeline and Hazardous Materials Safety
                                                           PHMSA                   5            5
Administration

Research and Innovative Technology
                                                             RITA                  9           10
Administration

Saint Lawrence Seaway Development
                                                            SLSDC                  1            1
Corporation

Surface Transportation Board                                 STB                   2            2

    Total Systems                                                               426           429
Data Source: OIG report “Audit of Information Security Program,” Report Number FI-2007-002,
October 23, 2006, and Enterprise Security Portal as of 9/5/2007




Exhibit C. Departmental Operating Administrations and System
Inventory Counts
                                                                  35




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                   Title

Ed Densmore                            Program Director
Michael Marshlick                      Project Manager—Senior
                                       Computer Science Adviser
Joann Adam                             Project Manager
Nathan Custer                          Project Manager
Dr. Ping Z. Sun                        Project Manager
Michael P. Fruitman                    Communications Adviser
Lynn Dowds                             Senior Auditor
Jim Mallow                             Senior Auditor
Tim Roberts                            Senior Auditor
Henry Lee                              Computer Scientist
Mitchell Balakit                       Information Technology
                                       Specialist
Christopher Cullerot                   Information Technology
                                       Specialist
Atul Darooka                           Information Technology
                                       Specialist
Vasily Gerasimov                       Information Technology
                                       Specialist
Ann Moles                              Information Technology
                                       Specialist
Martha Morrobel                        Information Technology
                                       Specialist
Raj Singh                              Information Technology
                                       Specialist




Exhibit D. Major Contributors to This Report
                                                                                                    36


                  APPENDIX. MANAGEMENT COMMENTS




Subject:   Office of the Chief Information Officer Response to Office of   Date: 10/4/07
           Inspector General Federal Information Security Management
           Act (FISMA) Audit Draft Report

 From:     Daniel G. Mintz
           DOT Chief Information Officer, S-80

    To:    Rebecca Leng
           Technology and Computer Security, (JA-20)


           The Department of Transportation (DOT) Chief Information Officer (CIO) officials reviewed
           the Office of Inspector General (OIG’s) draft final FY 2007 Information Security Program
           Audit Report and provided oral comments.

           CIO officials generally concurred with the report’s findings and recommendations and will
           provide written comments describing the specific actions and milestones that will be taken to
           implement the recommendations, 30 days after the signing date of the official FY 2007
           FISMA Report.

           The OCIO office appreciates the working relationship developed during this audit and looks
           forward to the OIG’s continued involvement during FY 2008 with “Getting back to Green”
           remediation efforts.

           If you have any questions, please contact Phillip Loranger, Chief Information Security
           Officer and Deputy Associate CIO for IT Investments, at phillip.loranger@dot.gov or
           (202) 366-5636.




                  Appendix. Management Comments
                                                                            37


The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
                                                                              38


                       Information Security Program
                     Section 508 Compliance Presentation


Figure 1. Operating Administrations With Highest Ratios of Overdue
Corrections

   • For FHWA 282 POA&Ms are open and 246 POA&Ms are 6+ months
     overdue
   • For FRA 287 POA&Ms are open and 269 POA&Ms are 6+ months
     overdue
   • For PHMSA 105 POA&Ms are open and 104 POA&Ms are 6+ months
     overdue


Figure 2. Operating Administrations’ Total Systems and Percentages of
Systems Reported as Having Met Baseline Security Configuration Standards

   • For FAA the total number of systems is 264 and number of systems
     reported to have met security baseline configuration standards is 15. 6% of
     FAA systems met baseline security configuration standard.
   • For FHWA the total number of systems is 25 and number of systems
     reported to have met security baseline configuration standards is 3. 12% of
     FHWA systems met baseline security configuration standard.
   • For FMCSA the total number of systems is 23 and number of systems
     reported to have met security baseline configuration standards is 22. 96% of
     FMCSA systems met baseline security configuration standard.
   • For FRA the total number of systems is 20 and number of systems reported
     to have met security baseline configuration standards is 19. 95% of FRA
     systems met baseline security configuration standard.
   • For FTA the total number of systems is 5 and number of systems reported
     to have met security baseline configuration standards is 5. 100% of FTA
     systems met baseline security configuration standard.
   • For MARAD the total number of systems is 11 and number of systems
     reported to have met security baseline configuration standards is 0. 0% of
     MARAD systems met baseline security configuration standard.
   • For NHTSA the total number of systems is 18 and number of systems
     reported to have met security baseline configuration standards is 16. 89% of
     NHTSA systems met baseline security configuration standard.
   • For OIG the total number of systems is 3 and number of systems reported
     to have met security baseline configuration standards is 3. 100% of OIG
     systems met baseline security configuration standard.
                                                                           39


• For OST the total number of systems is 42 and number of systems reported
  to have met security baseline configuration standards is 29. 69% of OST
  systems met baseline security configuration standard.
• For PHMSA the total number of systems is 5 and number of systems
  reported to have met security baseline configuration standards is 5. 100% of
  PHMSA systems met baseline security configuration standard.
• For RITA the total number of systems is 10 and number of systems
  reported to have met security baseline configuration standards is 9. 90% of
  RITA systems met baseline security configuration standard.
• For SLSDC the total number of systems is 1 and number of systems
  reported to have met security baseline configuration standards is 0. 0% of
  SLSDC systems met baseline security configuration standard.
• For STB the total number of systems is 2 and number of systems reported
  to have met security baseline configuration standards is 0. 0% of STB
  systems met baseline security configuration standard.


Table 7. Departmental Major IT Investment EVM Status

   • FAA has 21 major IT investments requiring EVM, out of which 6
     investments or 29% met 50 percent or greater OMB EVM criteria in FY
     2006 and 10 investments or 48% met 50 percent or greater OMB EVM
     criteria in FY 2007
   • Other Operating Administrations have 10 major IT investments
     requiring EVM, out of which 1 investment or 10% met 50 percent or
     greater OMB EVM criteria in FY 2006 and 1 investment or 10% met 50
     percent or greater OMB EVM criteria in FY 2007
   • Out of total 31 major IT investments requiring EVM, 7 investments or
     23% met 50 percent or greater OMB EVM criteria in FY 2006 and 11
     investments or 35% met 50 percent or greater OMB EVM criteria in FY
     2007
